   November 25, 2002




Information Technology
Allegations Regarding the DoD
Education Activity’s Use of the
Standard Procurement System
(D-2003-026)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

DDP                  Director, Defense Procurement
DEPO                 Department of Defense Dependant Schools Europe Procurement
                        Office
DoDEA                Department of Defense Education Activity
OIG DoD              Office of the Inspector General of the Department of Defense
SPS                  Standard Procurement System
PMO                  Program Management Office
         Office of the Inspector General of the Department of Defense
Report No. D-2003-026                                               November 25, 2002
  (Project No. D2002FG-0138)

            Allegations Regarding the DoD Education Activity's
                 Use of the Standard Procurement System

                                Executive Summary

Who Should Read This Report and Why? Procurement officials authorized to make
decisions regarding their agency’s automated procurement systems should read this
report. The report discusses the requirements that determine whether an agency should
adopt the Standard Procurement System.

Background. We performed this audit in response to a complaint to the Defense Hotline
regarding the DoD Education Activity’s decision to forgo implementation of the Standard
Procurement System in favor of another automated procurement system. The allegation
stated that this decision was in direct violation of a July 12, 1996, memorandum from the
Director, Defense Procurement that prohibited the acquisition or development of any
software that duplicates a function performed by a deployed version of the Standard
Procurement System unless the Director approved the intended action. The DoD
Education Activity educates the children of DoD families in DoD schools worldwide.
The DoD Education Activity’s total obligations average $131 million per year. The
Standard Procurement System is an automated information system that is designed to
support all DoD procurement organizations in procurement functions from receipt of
requirements until contract closeout.

Results. The DoD Education Activity upgrade of its legacy procurement system in lieu
of the Standard Procurement System was an appropriate decision. The Office of the
Director, Defense Procurement leaves the decision of when to implement the Standard
Procurement System to individual DoD Components. That decision should be based on a
business case analysis. The DoD Education Activity evaluated the costs and
functionality of the Standard Procurement System against its legacy procurement system
and, in June 2001, determined that delaying Standard Procurement System
implementation would be the most cost-effective course of action for the agency. The
cost to upgrade the legacy system was $328,958 and the cost to start using the Standard
Procurement System was $1.3 million. On January 15, 2002, the Standard Procurement
System program was placed in a strategic pause to address customer satisfaction and
compliance issues, and to institute new processes for program management. Because the
allegations were not substantiated, the report contains no recommendations.

Management Comments. We provided a draft of this report on November 6, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing the report in final form.
Table of Contents

Executive Summary                                                  i


Background                                                         1


Objective                                                          3


Finding
     The DoDEA Decision to Upgrade Its Legacy Procurement System   4


Appendixes
     A. Scope and Methodology
         Prior Coverage                                            7
     B. Report Distribution                                        9
Background
    We performed this audit in response to allegations made to the Defense Hotline
    regarding the decision of the DoD Education Activity (DoDEA) to forgo
    implementation of the Standard Procurement System (SPS) in favor of another
    automated procurement system.

    DoD Education Activity. In 1994, the DoD Dependant Schools and DoD
    Domestic Elementary and Secondary Schools systems were brought together
    under the organization of the DoDEA. The mission of DoDEA is to educate the
    children of DoD families in DoD schools worldwide. DoDEA operates under the
    authority, direction, and control of the Assistant Secretary of Defense (Force
    Management and Policy) and serves as the Assistant Secretary’s principal staff
    advisor on all DoD education matters relative to overseas, domestic, and
    continuing adult and post-secondary education activities and programs. DoDEA
    operates 224 public schools located in 14 foreign countries, 7 states, Guam, and
    Puerto Rico, employing approximately 8,800 teachers and serving more than
    100,000 students.

    DoDEA Procurement Division. The DoDEA Procurement Division buys goods
    and services for all of DoDEA. These needs are similar to those of most U.S.
    public school systems, including educational materials, playground equipment,
    and school bus transportation. DoDEA operates four procurement sites; DoDEA
    Headquarters in Arlington, Virginia; the DoD Education Supplies Procurement
    Office in Richmond, Virginia; DoD Dependant Schools Europe Procurement
    Office (DEPO) in Mainz Kastel, Germany; and the DoD Dependant Schools
    Pacific Procurement Office in Okinawa, Japan. From FY 1999 to FY 2001,
    DoDEA obligations for procurement averaged $131 million per year.

    Standard Procurement System. The Standard Procurement System has been
    the subject of recent audit reports issued by the General Accounting Office and
    the Office of the Inspector General of the Department of Defense. These reports
    provide coverage of the history of the acquisition of SPS, as well as document
    issues DoD has encountered since SPS program initiation.

             SPS Acquisition History. In November 1994, the Director, Defense
    Procurement (DDP) initiated the SPS program to acquire and deploy an
    automated system to perform all DoD procurement functions, including software
    installation, training, and all steps necessary to gain user acceptance of SPS.
    Standard procurement functions include acquiring supplies and services by
    describing requirements; determining the appropriate acquisition method;
    soliciting sources; and awarding, reporting, modifying, terminating, and closing
    out contracts. On April 7, 1997, American Management Systems, Inc., was
    announced as the contractor selected to furnish the procurement software and
    related services for SPS. The DDP delegated responsibility for SPS to the SPS
    Program Management Office (PMO) within the Defense Contract Management
    Agency.

           According to the SPS acquisition strategy, SPS would be delivered in
    increments of functionality with DoD expectations that SPS would be fully


                                        1
operational at all sites by March 31, 2000. However, the General Accounting
Office recently reported that this date had slipped by 3 and 1/2 years and was
likely to slip further.1 Although SPS was expected to serve 43,000 users at 1,100
DoD Sites, SPS had only been deployed to 22,150 users at 777 DoD sites as of
January 7, 2002. The program manager recently reported that the program was in
breach of its August 2001 acquisition program baseline cost, schedule, and
performance parameters; resulting in formal acquisition direction. On
January 15, 2002, the Deputy CIO directed the Director, Defense Contract
Management Agency to cease work on SPS Version 5.0 and limit development
efforts to Version 4.2. The SPS Program is presently in a strategic pause so that
the SPS PMO can address customer satisfaction issues, compliance with DoD
acquisition policies and principles, and the contracting strategy. In addition, the
SPS PMO will institute new processes for program management.

        SPS Functionality. Since its inception, the SPS program has experienced
functionality issues. In 1996, a report by the Office of the Inspector General of
the Department of Defense (OIG DoD) stated that the acquisition and testing
strategies increased the risk that SPS would not meet user requirements.2 In
1999, the OIG DoD reported that the SPS evolutionary software approach did not
provide some critical functions to meet user needs or the mission need to replace
legacy systems.3 In March of 2001, the OIG DoD reported that about 26.5
percent of the personnel licensed to use SPS version 4.1 had not used it because
SPS either lacked the functionality required for those sites or employees received
SPS when it was not needed to perform their job.4 It was estimated that the SPS
PMO had spent up to $2.1 million of the $7.9 million in license costs for users
who could not or would not use SPS. The report also stated that user satisfaction
needed to be improved because the PMO had prematurely deployed SPS and had
not developed performance measures to track whether SPS met the mission
objectives and delivered intended benefits.

Comprizon. The DoDEA Procurement Division implemented the Standard
Automated Contracting System as its automated contracting system in 1997. In
October of 2000, the Standard Automated Contracting System was renamed
Comprizon to avoid confusion with the U.S. Army’s Standard Army Automated
Contracting System.




1
    General Accounting Office Report No. GAO-01-682, “Continued Investment in the Standard
    Procurement System Has Not Been Justified,” July 31, 2001.
2
    IG DoD Report No. 96-219, “Allegations to the Defense Hotline Concerning the Standard
    Procurement System,” September 5, 1996.
3
    IG DoD Report No. 99-166, “Initial Implementation of the Standard Procurement System,”
    May 26, 1999.
4
    IG DoD Report No. D-2001-075, “Standard Procurement System Use and User Satisfaction,”
    March 13, 2001.



                                            2
Objective
    Our overall audit objective was to review allegations to the Defense Hotline
    regarding the use of the SPS at the DoDEA. Specifically, the objective was to
    determine whether management’s decision to procure a contract writing system
    other than the SPS was adequately supported. See Appendix A for a discussion of
    the audit scope and methodology and prior audit coverage related to the audit
    objective.




                                       3
            The DoDEA Decision to Upgrade Its
            Legacy Procurement System
            On April 18, 2002, the Defense Hotline received an allegation stating that
            the decision of DoDEA to delay SPS violated a July 1996 memorandum
            from the DDP prohibiting the acquisition, development, or deployment of
            any software that duplicated a function performed by the deployed version
            of the SPS. The DoDEA upgrade of its legacy procurement system in
            lieu of SPS was an appropriate decision. The Office of the DDP leaves
            the decision of when to implement the SPS to individual DoD
            Components, based on a business case analysis. DoDEA evaluated the
            costs and functionality of SPS in comparison with its legacy procurement
            system and, in June 2001, determined that delaying SPS implementation
            would be the most cost-effective course of action for the agency.


Efforts to Deploy SPS
     In November of 1999, DoDEA began deploying SPS at its European procurement
     office, DEPO. However, SPS was not deployed to the DoDEA procurement site
     in Richmond, Virginia, because a site survey had indicated that the site was not
     yet suitable for the deployment of SPS. Also, although attempts were made to
     make the procurement site in Japan suitable for deployment, and personnel from
     that site received SPS training paid for by the SPS Program Management Office;
     SPS was never fully implemented at that site. Once deployed at DEPO, DoDEA
     found that SPS did not meet the functional needs of the site, and SPS proved to be
     more expensive to maintain than anticipated. For example, DEPO was notified
     after deployment that it would need to purchase additional support services from
     American Management Systems, Inc., at a cost of $68,000.

     Faced with these functional issues and unexpected costs, DoDEA ordered an
     analysis be performed to determine the costs associated with getting SPS
     performing to the level of functionality that existed with the DoDEA legacy
     system. The cost analysis performed by the DoDEA Procurement Division
     indicated that it would be more cost-effective for DoDEA to upgrade its legacy
     procurement system, Comprizon, DoDEA-wide. DoDEA also inquired about the
     need for a waiver from SPS implementation requirements, but was informed by
     the SPS PMO that one would not be necessary. DoDEA decided to delay
     implementation of SPS and, in June 2001, elected to upgrade Comprizon at all
     procurement sites. According to the Chief of Procurement, DoDEA the agency
     would continue to evaluate SPS for future implementation. Personnel from
     DoDEA added that the agency planned to review SPS in FY 2003.


Criteria
     On August 9, 1995, the DDP issued a memorandum requiring Components to
     notify the DDP when an amount in excess of $1 million would be spent on the


                                         4
    development, modernization, or annual operating costs for a procurement system.
    However, the memorandum did not prohibit spending money on the development
    or modernization of a procurement system, and the amount DoDEA needed to
    spend on the modernization fell under the $1 million reporting threshold. In a
    second DDP memorandum, “Contracting Policy Guidance,” July 12, 1996, the
    DDP stated that once SPS is deployed at a contracting or contracting
    administration office, legacy systems at that office must be discontinued unless
    they performed a function not yet deployed in SPS. The memorandum also
    prohibited the acquisition, development, or deployment of any software that
    duplicated a function performed by the deployed version of the SPS unless the
    DDP approved the intended action.

    When we contacted the Deputy DDP, she did not agree with the interpretation of
    the July 1996 memorandum in the allegation. The Deputy DDP stated that
    Defense Procurement could not dictate when a DoD Component should
    implement SPS or when it should upgrade to another version of SPS, but that each
    agency’s decision should be based on a business case analysis. The Deputy
    Director stated that implementing SPS at an agency before that organization was
    ready could be costly. Considering the spiral development of SPS, with each new
    release adding functionality to the previous one, each agency should decide when
    to implement SPS. The DoDEA liaison at the SPS PMO concurred with the
    Deputy DDP that, ultimately, the decision of when to implement SPS was one
    DoDEA must make.

    Also, according to DoD Directive 5025.1, “DoD Directives Systems,”
    July 27, 2000, a directive-type memorandum should be converted into a DoD
    issuance within 180 days from the date of the signature. Neither of these
    directive-type memorandums was ever codified, and the continued intent was not
    transparent. However, DoDEA used due diligence in an attempt to determine the
    position of the SPS PMO before deciding to upgrade the legacy procurement
    system.


The DoDEA Decision Making Process
    DoDEA made the decision to modernize its legacy system and delay SPS
    implementation because it determined that it was the most cost-effective course of
    action for DoDEA to take at that time. Concerned about the lack of functionality
    of the basic SPS installation available at that time, and the costs of maintaining
    and upgrading SPS, DoDEA evaluated the costs of alternative actions before
    deciding to upgrade Comprizon. DoDEA also contacted the SPS PMO to
    determine if a waiver would be required for their course of action.

    Functional Issues. Following the installation of SPS at the DEPO site in
    Germany, users reported several functional issues. For example, DoDEA made
    the determination that SPS would not recognize foreign currency or addresses,
    and SPS could not be used for acquisitions above the simple acquisition
    threshold. Because of these issues, DEPO users employed other means to process
    acquisitions, and the other procurement sites were reluctant to adopt SPS.
    Although the SPS PMO provides the funding for the basic SPS installation and


                                        5
    associated training, DoDEA was told that it would have to pay for any additional
    modules or upgrades. Therefore, DoDEA began to analyze the costs associated
    with getting SPS to perform at the same level of functionality as the Comprizon
    system in use at the other DoDEA procurement sites.

    Cost Analysis. The DoDEA Procurement Division ordered a cost-benefit
    analysis to determine the cost of getting SPS to perform at all four procurement
    sites at the level that Comprizon was already performing. Apart from the cost
    associated with purchasing the additional SPS modules, DoDEA would be
    responsible for additional costs associated with deploying SPS, such as data
    conversion costs and hardware upgrades to enable all the sites to run SPS. A
    May 1, 2001, cost analysis prepared by the DoDEA Procurement Division
    estimated the SPS initial startup cost at approximately $1.3 million. DoDEA
    prepared cost estimates to determine the cost of upgrading all four DoDEA
    procurement sites to a web-enabled version of the legacy system already installed
    at the other DoDEA sites. The DoDEA Procurement Division estimated the total
    cost of the upgrade to be approximately $328,958.

    Once DoDEA concluded that it would be more cost-effective to continue using its
    legacy procurement system than to deploy SPS, DoDEA contacted the SPS PMO.
    DoDEA inquired whether the use of SPS was mandatory and, if it was, whether
    DoDEA would need to pursue a waiver from deploying SPS. The SPS PMO
    responded that a waiver would not be necessary and reiterated that SPS was only
    mandated if it met the procurement site’s functional requirements.


Conclusion
    The allegations made to the Defense Hotline regarding the DoDEA decision to
    delay implementation of SPS were unsupported. The Office of the DDP does not
    dictate when a DoD Component is required to implement SPS. Instead, the DDP
    leaves that decision up to the individual Component, which should base its
    decision on a business case analysis. DoDEA evaluated the costs of installing and
    upgrading SPS at all its procurement sites, but determined that delaying
    implementation of SPS and modernizing Comprizon would be cost-effective and
    address immediate user requirements. Therefore, this report contains no
    recommendations.




                                        6
Appendix A. Scope and Methodology
     We evaluated the validity of the allegations made against DoDEA. We also
     reviewed criteria relating to DoDEA, SPS, and automated procurement systems,
     such as DoD Directive 1342.20 and DoD Directive 5025.1, as well as
     directive-type memorandums issued by the DDP. We reviewed e-mail
     communications between the DoDEA Procurement Division and the SPS PMO.
     We reviewed records originated during the period between September 1998 and
     September 2001 documenting the DoDEA implementation of SPS. However, we
     did not obtain or validate the supporting documentation for the cost estimates. In
     addition, we relied on assertions made by DoDEA and SPS PMO personnel with
     regards to the chronology of events. We reviewed various cost estimates prepared
     by the DoDEA procurement division and AMS, the results of site surveys
     performed by the SPS PMO, and e-mail communications between DoDEA
     headquarters and the other procurement sites. However, we were unable to obtain
     the actual site surveys. In addition we reviewed previous audit reports and related
     testimony to determine the history of the SPS program. The previous audit
     reports and related testimony are the basis for the SPS background coverage in
     the audit report. Also, we interviewed personnel from the Office of the DDP, the
     SPS PMO, and DoDEA.

     We performed this audit from May through October 2002 in accordance with
     generally accepted government auditing standards. We did not review the
     management control program as it relates to the objectives of the audit, as this
     audit was limited to a response to allegations made to the Defense Hotline.

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in DoD. This report provides coverage of
     the DoD Systems Modernization (DoD SYS MOD) high-risk area.


Prior Coverage
     During the last 5 years, the General Accounting Office and the Office of the
     Inspector General of the Department of Defense have issued 4 reports discussing
     the Standard Procurement System. Unrestricted General Accounting Office
     reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
     Inspector General of the Department of Defense reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.

General Accounting Office
     General Accounting Office Report No. GAO-01-682 (OSD Case No. 310211),
     “Continued Investment in the Standard Procurement System Has Not Been
     Justified,” July 31, 2001




                                          7
Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2002-108, “Standard Procurement System Certification
     and Accreditation Process,” June 19, 2002

     IG DoD Report No. D-2001-075, “Standard Procurement System Use and User
     Satisfaction,” March 13, 2001

     IG DoD Report No. 99-166, “Initial Implementation of the Standard Procurement
     System,” May 26, 1999




                                       8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director for Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, DoD Education Activity

Non-Defense Federal Organization
Office of Management and Budget




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          10
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Kathryn M. Truex
Scott S. Brittingham
W. Ryan Pusey
Catherine Bird
